     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    Afghan First Initiative Has Placed Work with Afghan
    Companies, but Is Affected by Inconsistent Contract
      Solicitation and Vetting, and Employment Data
                           Is Limited




                                     January 31, 2012




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative
                   SIGAR
                                                              SIGAR Audit-12-6                                                                  January 2012
                                                              Afghan First Initiative Has Placed Work with Afghan Companies,
                                                                  but Is Affected by Inconsistent Contract Solicitation and
  Special Inspector General for Afghanistan Reconstruction                Vetting, and Employment Data Is Limited
What SIGAR Reviewed
The Afghan First Initiative (AFI) supports U.S. counterinsurgency objectives by supporting Afghan companies in order to increase
Afghan employment. The Fiscal Year 2008 National Defense Authorization Act authorized the Department of Defense (DOD) to limit
competition to Afghan products, services, and sources. In 2010, further guidance was issued to agencies which encourage local
procurement contracting for the purpose of improving the Afghan economy by building Afghan leadership, participation, capacity,
and sustainability. This report assesses (1) how agencies identified and documented that Afghan companies were eligible for AFI,
(2) progress made on selected contracts with Afghan companies, and (3) how agencies were measuring progress towards AFI’s
overall goal of increasing employment. To accomplish these objectives, SIGAR met with contracting officials from DOD, the
Department of State, the U.S. Agency for International Development (USAID), and Afghan contractors and manufacturers. SIGAR
limited its review to the Afghanistan Security Forces Fund, the Economic Support Fund, and other reconstruction funds. SIGAR
reviewed 29 AFI construction contracts and conducted 10 site inspections to determine compliance with contract terms. SIGAR
conducted work from March 2011 to December 2011 in seven provinces in Afghanistan, in accordance with generally
accepted government auditing standards.
What SIGAR Found
U.S. contracting authorities used at least six different methods to announce contract solicitations to the Afghan business community
and at least seven separate databases to vet contractor ownership and capacity. The announcement methods provided numerous
opportunities for Afghan businesses to identify U.S. contract opportunities; however, most U.S. agencies did not use a website that
consolidated this information in a single location. Similarly, a wide variety of databases were available to vet Afghan companies for
ownership, resource capacity, and prior performance. However, many U.S. agencies did not use the full range of information
available to vet companies prior to award. For example, although U.S. agencies obtained business licenses at the time of award to
confirm Afghan ownership, they did not independently verify these licenses with Afghan authorities or monitor the validity of the
licenses throughout the contract’s period of performance. SIGAR found four instances in which non-Afghan companies were
awarded an AFI contract. As a result of the inconsistent approaches in selecting and vetting Afghan companies, access to contract
opportunities may have been limited, and some companies may not have been eligible for AFI contracts.
Over 90 percent of the AFI reconstruction-funded awards that SIGAR reviewed were for construction projects, of which 20 Afghan
companies received nearly 80 percent of the $654.4 million awarded. SIGAR reviewed 29 AFI construction contracts valued at
$133 million and found that the companies generally met contract requirements. SIGAR found that 19 construction projects that
had cost and schedule variances, were generally justifiable, supported by approved modifications. Of the 10 construction projects
SIGAR inspected, only a police station in Farah Province had significant construction deficiencies, although corrective action was
recently taken by the contracting authority.
The absence of both a standard definition of employment and a systematic requirement to track and verify employment figures
resulted in an inability to fully assess the effect of $654.4 million in AFI reconstruction contract awards over the last 3 years.
U.S. agencies collect employment data on Afghan employment related to their procurement awards for a variety of purposes and
through a variety of means; however, these efforts are not designed to gauge agency progress toward promoting Afghan
employment through the AFI award process. Aggregate data on Afghan employment resulting from coalition partners’ contracting
activities is only available in a coalition partners created “scorecard,” which includes broad indicators of the effect of contracts
awarded by coalition countries. For a variety of reasons, however, this data does not provide a suitable basis for measuring the
effect U.S. procurement efforts have had on generating short- and long-term employment gains in Afghanistan in support of
U.S. goals.
What SIGAR Recommends
To broaden the base of participating Afghan companies, and ensure that only qualified companies receive AFI awards, SIGAR is
making four recommendations to the Commander of U.S. Forces-Afghanistan and the U.S. Ambassador to Afghanistan, in
coordination with the U.S. Central Command Combined Joint Theater Support Contracting Command (C-JTSCC), U.S. Army Corps of
Engineers, and the USAID Mission Director to Afghanistan to develop more systematic approaches for soliciting and vetting
contracts, and collecting employment data. The U.S. Embassy and C-JTSCC concurred with the recommendations. The U.S. Army
Corps of Engineers concurred with three recommendations and did not concur with one due to challenges in measuring local
employment in Afghanistan.
                       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


January 31, 2012

The Honorable Ryan C. Crocker
U.S. Ambassador to Afghanistan
General John R. Allen
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force
Rear Admiral Nicholas Kalathas
Commander, U.S. Central Command Joint Theater Support
  Contracting Command
Lieutenant General Daniel P. Bolger
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan
Major General Merdith W. B. Temple
Acting U.S. Army Chief of Engineers and
  Acting Commanding General, U.S. Army Corps of Engineers
Dr. S. Ken Yamashita
USAID Mission Director to Afghanistan
This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of the Afghan First Initiative (AFI) implemented by U.S. contracting
authorities. This report includes four recommendations to the Commander of U.S. Forces-Afghanistan
and the U.S. Ambassador to Afghanistan, in coordination with U.S. Central Command Combined Joint
Theater Support Contracting Command, U.S. Army Corps of Engineers, and the U.S. Agency for
International Development Mission Director to Afghanistan, to assure that AFI solicitation and vetting
procedures are improved, Afghan business ownership is verified, and the effect on employment is
adequately measured.

When preparing the final report, we considered comments from the U.S. Embassy Kabul, U.S. Central
Command Joint Theater Support Contracting Command (C-JTSCC), U.S. Army Corps of Engineers, and the
Combined Security Transition Command-Afghanistan (CSTC-A). These comments are reproduced in
appendices II-V, respectively. The U.S. Embassy, C-JTSCC, and CSTC-A concurred with the
recommendations. The U.S. Army Corps of Engineers did not concur with one recommendation due to
challenges in measuring local employment in Afghanistan. SIGAR conducted this performance audit under
the authority of Public Law No. 110-181, as amended; the Inspector General Act of 1978; and the
Inspector General Reform Act of 2008.




Steven J Trent
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                        Page i
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Contracting Authorities Used Inconsistent Methods To Solicit and Vet Afghan
   Companies .............................................................................................................................................. 4
Selected AFI Construction Projects Generally Met Contract Terms and Our
    Inspections Generally Found Minor Construction Flaws ..................................................................... 10
Data on Employment Gains Is Limited ........................................................................................................ 13
Conclusion ................................................................................................................................................... 14
Recommendations ...................................................................................................................................... 15
Comments ................................................................................................................................................... 15
Appendix I: Scope and Methodology .......................................................................................................... 16
Appendix II: Comments From the U.S. Embassy Kabul ............................................................................... 18
Appendix III: Comments From Centcom Joint Theater Support Contracting
   Command ............................................................................................................................................. 26
Appendix IV: Comments From NATO Training Mission-Afghanistan / Combined
   Security Transition Command-Afghanistan.......................................................................................... 28
Appendix V: Comments From U.S. Army Corps of Engineers ..................................................................... 29


TABLES

Table 1: AFI Funding and Award Categories, by Contracting Authority, January
    2008 through May 2011 ......................................................................................................................... 3
Table 2: Contract Solicitation Methods by Agency ....................................................................................... 5
Table 3: Databases or Information Sources Available for Vetting of Afghan
    Companies .............................................................................................................................................. 6
Table 4: Databases and Information Sources Utilized by Contracting Authorities
    to Vet Afghan Companies for Award ...................................................................................................... 7
Table 5: Status of AFI Construction Projects in July-August 2011 .............................................................. 12


FIGURES

Figure 1: Distribution of AFI Awards by Procurement Category ($ in millions) .......................................... 11




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                                                             Page ii
ACRONYMS

ABAP                      Afghan Business Advisor Program
AFI                       Afghan First Initiative
AFWG                      Afghan First Working Group
AISA                      Afghanistan Investment Support Agency
CERP                      Commander’s Emergency Response Program
C-JTSCC                   U.S. Central Command Joint Theater Support Contracting Command
COIN                      Counterinsurgency
CSTC-A                    Combined Security Transition Command-Afghanistan
DOD                       Department of Defense
INL                       Bureau of International Narcotics and Law Enforcement Affairs
ISAF                      International Security Assistance Force
NDAA                      National Defense Authorization Act
PAS                       Public Affairs Section
PDT                       Peace Dividend Trust
PPIRS                     Past Performance Information Retrieval System
SIGAR                     Special Inspector General for Afghanistan Reconstruction
State                     Department of State
TFBSO                     Task Force for Business and Stability Operations
USACE                     U.S. Army Corps of Engineers
USACE-TAN                 USACE, Afghan Engineer District - North
USACE-TAS                 USACE, Afghan Engineer District - South
USAID                     U.S. Agency for International Development
USFOR-A                   U.S. Forces-Afghanistan




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                 Page iii
    Afghan First Initiative Has Placed Work with Afghan Companies, but Is Affected
       by Inconsistent Contract Solicitation and Vetting, and Employment Data
                                        Is Limited


Since March 2006, U.S. military and civilian agencies operating in Afghanistan have taken steps to
ensure that a greater number of contracts are awarded to Afghan companies. Over time, these efforts
have become known collectively as the Afghan First Initiative (AFI).1 The key aim of AFI is to support
U.S. counterinsurgency (COIN) objectives by helping create job opportunities to improve the economy.
In January 2008, AFI was codified in Section 886 of the Fiscal Year 2008 National Defense Authorization
Act (NDAA) 2 authorizing the Department of Defense (DOD) to limit competition to Afghan products,
services, and sources. In the fall of 2010, the U.S. Forces-Afghanistan (USFOR-A) Commander and the
U.S. Ambassador to Afghanistan issued guidance that U.S. contracting agencies should hire Afghans first,
buy Afghan products, and build Afghan capacity.

In fiscal year 2011, the International Security Assistance Force (ISAF) estimated that U.S. agencies
contracted over $4 billion, out of $17.3 billion, with Afghan companies. This report examines only the
part of AFI funded by funds such as the Afghanistan Security Forces Fund, the Economic Support Fund,
and other reconstruction funds. 3 We reviewed reconstruction funds provided to Afghan prime
contractors. 4 Based on agency-reported data for reconstruction activities 5—U.S.-funded reconstruction
awards to Afghan prime contractors from January 2008 to May 2011 totaled $654.4 million, of which
over 90 percent went to construction projects throughout Afghanistan. Specifically, we assessed
(1) how agencies identified and documented that Afghan companies were eligible for AFI, (2) progress
made on selected contracts with Afghan companies, and (3) how agencies were measuring progress
towards AFI’s overall goal of increasing employment.

To accomplish these objectives, we met with contracting officials from the Combined Security Transition
Command-Afghanistan (CSTC-A); the U.S. Central Command Joint Theater Support Contracting
Command (C-JTSCC), responsible for 12 Regional Contracting Centers in Afghanistan; the U.S. Army
1
 We refer to the “Afghan First Initiative” throughout this report, but it has also been referred to as the Afghan First
Program and Afghan First Policy by U.S. officials at different times.
2
P.L. 110-181, Section 886.
3
 According to ISAF, more than 90 percent of the $4 billion was spent on four primary categories: products
purchased from Afghan vendors (49 percent), construction (28 percent), support services (11 percent), and
transportation (6 percent).
4
 Reconstruction funds are used to build or rebuild the physical infrastructure of Afghanistan, establish training or
technical assistance programs for the Afghan government, deliver relief assistance to the people of Afghanistan,
and provide security or other support functions to facilitate reconstruction efforts. To identify U.S.-funded AFI
awards, we requested agencies to identify contracts that they had awarded to prime Afghan vendors funded by
Afghanistan Security Forces Fund, the Economic Support Fund, and other reconstruction funds.
5
 Both the U.S. Agency for International Development (USAID) and the Air Force Center for Engineering and the
Environment manage significant portfolios of U.S.-funded reconstruction project in Afghanistan, which were
excluded from this audit. We did not include the Air Force Center for Engineering and the Environment because it
reported it did not have any prime contracts with Afghan companies. USAID officials noted that the agency relies
almost exclusively on non-Afghan entities to serve as prime contractors or grantees. However, the agency
encourages its prime contractors and grantees to employ Afghan companies as sub-contractors.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                      Page 1
Corps of Engineers’ (USACE) Afghanistan Engineer District-North (USACE-TAN) and Afghanistan Engineer
District-South (USACE-TAS); DOD’s Task Force for Business and Stability Operations (TFBSO); the
U.S. Agency for International Development (USAID); the Department of State (State); interagency
working groups; and Afghan companies. We excluded awards made under the Commander’s
Emergency Response Program (CERP). We selected 29 construction contracts valued at $133 million for
detailed review, and made inspections of 10 project sites valued at $46 million. We also held a panel
discussion with 10 Afghan companies that had received AFI awards. We conducted our audit work in
seven Afghan provinces from March 2011 to December 2011 in accordance with generally accepted
government auditing standards. Appendix I provides a more detailed discussion of our scope and
methodology.


BACKGROUND

From 2002 through December 31, 2011, $85.5 billion has been appropriated for Afghanistan
reconstruction. This effort has resulted in reported progress in terms of infrastructure development and
the restoration of certain critical services. However, security conditions remain tenuous in certain parts
of the country and both unemployment and underemployment remain high, which raises concerns
about Afghanistan’s future as expected draw-downs of international operations and assistance begin. 6
To further COIN objectives, the United States initiated AFI to increase Afghan job opportunities to help
improve the Afghan economy. As illustrated below, U.S. laws and related guidance established AFI.

    •   In March 2006 then Commanding General of Combined Forces Coalition-Afghanistan,
        announced the creation of the “Afghan First” program to leverage Combined Forces
        Coalition-Afghanistan’s activities and resources to promote the Afghan economy.
    •   In January 2008, Section 886 of the 2008 NDAA stipulated DOD to limit competition to Afghan
        companies if used by Afghanistan security forces or if the limitation is in the “national security
        interest of the United States” when the limitation provides “a stable source of jobs” in
        Afghanistan and will not harm military operations nor the U.S. industrial base. 7
    •   In 2009, Section 1102 of the Supplemental Appropriations Act stipulated that State’s Economic
        Support Funds may be awarded on a limited-competition basis in Afghanistan in a manner that
        utilizes Afghan entities and improves the economic, social well-being, and political status of
        Afghan women and girls. 8
    •   In early 2010, the U.S. Ambassador and Commander USFOR-A and Commander ISAF, issued an
        “Afghan First Policy,” which states that the U.S. Mission will work with the United Nations
        Assistance Mission in Afghanistan, USFOR-A, the ISAF, and international organizations to
        increase procurement from Afghan companies.
    •   In September 2010, the Commander USFOR-A and Commander ISAF, issued COIN contracting
        guidance to ISAF urging the award of more contracts directly to Afghan companies. 9
    •   In November 2010, the U.S. Ambassador issued additional COIN contracting guidance directing
        all U.S. Embassy and USAID Mission personnel in Afghanistan to adhere to overall COIN goals in
        contracting on behalf of the U.S government.

6
 The Central Intelligence Agency World Factbook notes that despite the “infusion of international assistance,”
Afghanistan is “highly dependent on foreign aid.” The Factbook notes Afghanistan, in 2008, had a 35 percent
                                       th
unemployment rate – making it the 180 worst figure out of 199 countries the Central Intelligence Agency ranked.
7
P.L. 110-181, Section 886.
8
P.L. 111-32, Section 1102.
9
COIN contracting objectives include hiring Afghans first, buying Afghan products, and building Afghan capacity.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                 Page 2
      •   In September 2011, the Commander USFOR-A and Commander ISAF, re-issued the ISAF COIN
          contracting guidance, which stated that, in addition to the COIN objectives in the September
          2010 guidance, local leaders must be consulted and vendors must be vetted to ensure that
          contracting does not allow the diversion of funds.

U.S. Awards to Afghan Companies since January 2008

DOD, State, and USAID are the primary U.S. contracting authorities in Afghanistan. Between January
2008 and May 2011, these contracting authorities reported awarding $654.4 million in reconstruction
funds directly to 214 Afghan companies for 356 contracts or other agreements for construction,
services, and commodities. USACE accounted for over $531 million, or 81 percent, of the AFI awards.
The majority of the C-JTSCC, 10 USACE, USAID, and State’s Bureau of International Narcotics and Law
Enforcement Affairs (INL) AFI reconstruction awards were for construction, followed by commodities.
Awards by the U.S. Embassy’s Public Affairs Section (PAS) were for services only. USAID makes some
awards directly to Afghan companies, but generally relies on its non-Afghan contractors and grantees to
use Afghan companies as sub-contractors. See table 1.


Table 1: AFI Funding and Award Categories, by Contracting Authority, January 2008
through May 2011
                                       Total Dollar
                  Total Number
Contracting                            Value of All                                  Commodities /
                   of AFI Prime                          Construction    Services
Authority                                   Awards                                         Other
                        Awards
                                       (in millions)

USACE                      125             $531.5              100%           0%                  0%

C-JTSCC                    192              $66.4                  58%       19%                  24%

INL                         27              $37.4                  52%        7%                  41%

PAS                           8             $10.2                  0%       100%                  0%

USAID                         4              $8.9                  75%       25%                  0%

Total                      356             $654.4

Source: SIGAR analysis of USACE, C-JTSCC, State, and USAID data.
Note: Percentages are based on number of awards and may not add to 100 percent due to rounding.


Though awards come directly from these contracting entities, several entities, which do not directly
contract with Afghan companies, play a role in AFI.

      •   The U.S. Embassy established the Afghan First Working Group (AFWG) in June 2010 to
          coordinate both U.S. and international efforts in AFI. Both civilian and military agencies
          participate in the AFWG. The AFWG acts as a forum to exchange information and provide a
          strategic, high-level view of AFI efforts, but it cannot authorize, compel, or instruct agencies to
          make awards to Afghan companies.
      •   In 2006, DOD created TFBSO to increase the number of contracts awarded to Iraqi companies,
          but in 2009 it shifted its focus to Afghanistan at the request of ISAF, the U.S. Central Command,
          and the U.S. Embassy Kabul. Among other activities, TFBSO created the AfghanFirst.org website,
          which is intended to be a repository for AFI solicitations for all agencies.

10
 We are conducting a separate review to assess the reliability of C-JTSCC’s data (see app. I).

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                              Page 3
    •   The Peace Dividend Trust (PDT) is a non-governmental organization partially funded by
        development agencies from Canada and the United Kingdom. In 2006, it established the Peace
        Dividend Marketplace-Afghanistan, which is intended to support the AFI local procurement
        practices. PDT maintains a database of registered Afghan companies that is used by some
        contracting authorities in Afghanistan.
    •   The Afghanistan Investment Support Agency (AISA) is the primary Afghan government entity
        responsible for issuing required business operating licenses and tax identification numbers to
        businesses. Other Afghan ministries may issue a license, based on their specific area, but AISA
        licenses are required for all businesses that are not small retail firms or import/export firms.


CONTRACTING AUTHORITIES USED INCONSISTENT METHODS TO SOLICIT AND VET AFGHAN
COMPANIES

U.S. contracting authorities used at least six different methods to announce solicitations to the Afghan
business community and at least seven separate databases to vet for contractor ownership and capacity.
The announcement methods used by U.S. contracting authorities provided numerous opportunities for
the Afghan business community to identify U.S. contract opportunities; however, the U.S. contracting
authorities did not use an established information portal intended to consolidate information on
U.S. contract opportunities. Similarly, a wide variety of databases are available to vet Afghan companies
for ownership, resource capacity, and prior performance. However, none of the contracting authorities
used the full range of information available in these databases to vet companies prior to award. For
example, we found that U.S. agencies did not routinely check business licenses to ensure that Afghan
companies are qualified to do business in Afghanistan. We reviewed 19 licenses of companies with
U.S. contracts under AFI and found that four companies were foreign owned. As a result, access to
procurement opportunities by Afghan companies may be limited, and some companies may not have
been eligible.

Solicitations for Procurement Opportunities Were Not Provided In a Single Location

U.S. contracting authorities reported at least six different methods to announce their contract
opportunities, increasing the likelihood that Afghan companies may not be able to identify the full range
of solicitations available. Table 2 illustrates how U.S. contracting authorities advertised their AFI
contract solicitations. Contracting authorities generally relied on a mix of websites, meetings, and
conferences and, in some cases, solicited companies from internal agency databases.




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                         Page 4
Table 2: Contract Solicitation Methods by Agency
                                                               Peace
                             Federal                                     Industry Fairs,
                                                              Dividend                   Internal Agency
Contracting      AfghanFirst Business            Agency                   Conferences
                                                                Trust                       Database,
Agency              .Org     Opportunities       Website                    or Other
                                                              Website or                 Afghan Advisors
                             Website                                       Meetings
                                                                Fairs

C-JTSCC                                                                                              

USACE-TAN                                                                                          

USACE-TAS                                                                                        

INL                                                                                                 

PAS                                                  

USAID                                                                                              

Source: SIGAR analysis of information from C-JTSCC, USACE, State, USAID, and Federal Business Opportunities and
AfghanFirst.org websites.


The TFBSO established AfghanFirst.Org, in cooperation with partner nations, to provide a simple
mechanism to communicate with the Afghan business community. The website’s goal is to simplify
interaction between Afghan business and the international community's contracting professionals who
purchase materials in support of their respective missions. AFWG also promotes the use of this website
as a source of U.S. contract solicitations for AFI. We found that only USACE used the website. INL
explained that it uses the website of the U.S. Consulate General in Frankfurt to announce solicitations
because its Regional Procurement Support Office is located there. However, it is unlikely that this
website is well known in the Afghan business community as a source of AFI awards. INL officials also
reported that they often relied on informal knowledge of local companies, which could limit the ability
to attract new companies. In response to our request, PAS reported AFI grants that were sole source
and therefore did not use solicitation mechanisms. However, in commenting on a draft of this report,
the U.S. Embassy stated that since June 2010, PAS policy is to limit sole source and make awards under
specific requests for proposals or the Annual Program Statement for open competition that are solicited
on grants.gov and the U.S. Embassy website. Some Afghan companies that participated in our panel
discussion noted that a single website would be useful in identifying all U.S. contract solicitations
available and, at a minimum, could provide links to available solicitations on other contracting authority
websites.

Vetting of Afghan Ownership and Sufficiency of Resources Was Inconsistent

Contracting officials have multiple databases available to vet Afghan companies prior to award to
document (1) Afghan ownership, (2) sufficiency of resources (cash flow, equipment, and staff), and
(3) past performance. 11 Specifically, we found that contracting authorities used at least seven different
databases or information sources to vet companies. However, they did not use the same sources and
only one agency used the full range of reported databases or information sources available to vet
Afghan companies prior to award. Although U.S. contracting authorities obtained the business licenses
at the time of award to confirm Afghan ownership, they neither independently verified business licenses


11
  We did not include vetting Afghan vendors for insurgent links. A recent U.S. Government Accountability Office
report addressed this topic. See GAO-11-355, U.S. Efforts to Vet Non-U.S. Vendors Need Improvement
(June 8, 2011).

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                        Page 5
with Afghan authorities nor monitored the validity of business licenses throughout the period of
performance of a contract. In addition, only one information source was available to check for
sufficiency of company resources, but it does not verify a potential company’s current cash flow. We
found that only C-JTSCC used this database to vet sufficiency of resources. As of September 2011,
C-JTSCC acquisition guidance was updated to require that C-JTSCC use business advisors located at
Afghan regional contracting centers for C-JTSCC to validate (1) vendor information in the Joint
Contingency Contracting System, 12 (2) legitimacy of vendor registration documentation, and (3) business
portfolio of Afghan companies. As shown in table 3, contracting authorities varied widely in selecting
databases or information sources to vet Afghan companies for ownership, sufficiency of resources, and
prior performance.


Table 3: Databases or Information Sources Available for Vetting of Afghan Companies
                                                              Afghan             Sufficiency of          Past
Acronym Database or Information Source
                                                             Ownership            Resources          Performance

            Afghanistan Investment Support
AISA                                                              
              Agency

            Contractor Performance Assessment
CPARS                                                                                                      
              Reporting System

EPLS        Excluded Parties List System                                                                   

            Federal Awardee Performance and
FAPIIS                                                                                                     
              Integrity Information System

JCCS        Joint Contingency Contracting System                                                          

            Peace Dividend Trust’s Registration and
PDT                                                                                                    
              Validation Process

            Past Performance Information Retrieval
PPIRS                                                                                                      
              System

Source: SIGAR analysis of DOD, State, and USAID documents and interviews, PDT interviews and documents, AISA
documents and interviews, and data from CPARS, EPLS, FAPIIS, JCCS.
Note: Sufficiency of resources includes cashflow, equipment, and staffing resources. In March 2011, C-JTSCC implemented
an Afghan Business Advisor program utilizing Afghan business advisors to validate Afghan company’s business portfolios.

Table 4 identifies which databases or information sources were used by the U.S. contracting authorities
to vet Afghan companies. The lack of a standard approach for vetting Afghan companies raises
questions regarding the adequacy and thoroughness of agency vetting efforts and the potential risk for
incomplete identification of qualified Afghan companies for AFI awards.




12
 The Joint Contingency Contracting System is a DOD database that provides information on the past performance
of vendors.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                           Page 6
Table 4: Databases and Information Sources Utilized by Contracting Authorities to Vet Afghan
Companies for Award
Contracting             a                                                             b                   PPIRS      Internal
                 ABAP        AISA        CPARS         EPLS        FAPIIS       JCCS          PDT
Authority                                                                                                           Databases

INL                                                                       N/A                                   

PAS                                                                      N/A                                  

C-JTSCC                                                                                         
                                                                                                                          c
USACE                                                                                                  

USAID                                                                   N/A                                   

Source: SIGAR analysis of C-JTSCC, USACE, State, and USAID documents and interviews; PDT interviews and documents;
documents from AISA, CPARS, EPLS, FAPIIS, JCCS; and agency websites.
Notes:
a
  In March 2011, C-JTSCC initiated an Afghan Business Advisor Program (ABAP) requiring the use of Afghan business advisors to
plan vendor outreach events, assist with resolution of vendor registration, payment and claims issues and help match host nation
vendors’ capabilities to coalition forces needs.
b
   According to U.S. Embassy comments, JCCS is not applicable for vetting State and USAID contracts.
c
  USACE-TAN maintains a “Section 886” database, which lists all companies that have registered with USACE.


Afghan Ownership

Section 886 of the 2008 NDAA allowed DOD to limit competition, provide preference, or use
non-competitive procurement methods in procuring a product or service in Afghanistan. 13 A product
from Afghanistan is defined to be mined, produced, or manufactured in Afghanistan. A service from
Afghanistan is defined to be performed in Afghanistan by citizens or permanent resident aliens of
Afghanistan. An Afghan company is defined as a business that (1) is owned by an Afghan citizen; (2) has
51 percent or more interest in the business held by an Afghan citizen, as indicated in licensing
documentation, (3) holds a current operating license issued by a Government of the Islamic Republic of
Afghanistan licensing authority; and (4) holds a identification number. 14 U.S. contracting officials
reported using two sources of information to vet the ownership of Afghan companies: (1) the PDT
database and (2) the AISA online website or licensing department officials.

      •    PDT provides information on ownership via its business portal website,
           afganistan.buildingmarkets.org. According to PDT, the database provides information on over
           7,000 Afghan-owned businesses across the country. Companies are entered into the business
           portal after a 7-step registration and validation process, which includes a site visit to the
           company by a PDT official and confirmation that the company has a current domestic business
           license—issued by the Afghan government—specifically the AISA.
      •    AISA maintains a business directory on its website, which can be used to check whether a
           company has a valid AISA license and is Afghan owned or foreign owned. AISA’s database, in
           contrast to PDT’s, allows direct access to verify a company’s status with AISA. However, we
           found instances in which the database provided incorrect ownership information. For example,
           AISA officials told us they had issued 20 to 30 licences designated as domestic ownership when,
           in fact, they were internationally owned.
13
    P.L. 110-181, Section 886.
14
 According to TFBSO, these three criteria are the common U.S. government/North Atlantic Treaty Organization
approved definition of an Afghan company.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                            Page 7
Only two contracting authorities—C-JTSCC and USAID—reported using these databases to verify
ownership and licensing documents of Afghan companies. USACE-TAS, INL, and PAS officials reported
they were either unaware of AISA’s online database or tended to accept AISA licenses at face value
without validation due, in part, to the lack of requirements to further verify licenses.

To determine an Afghan company’s ownership, U.S. contracting authorities collected AISA licenses from
Afghan companies at the time of award and maintained those documents as verification of Afghan
ownership. Our review of contract files for AFI awards found that AFI awards went to companies that
were not Afghan-owned, although contracting authorities had copies of AISA licenses to confirm
ownership from Afghan companies. Specifically, we reviewed 19 AISA licenses to determine whether
they had a “D” for domestic or an “I” for international license and independently confirmed ownership
status of these Afghan companies with AISA licensing officials. 15 As described below, 4 of 19 companies
that we reviewed were registered as majority foreign-owned—or “international”—companies at the
time of award. AISA confirmed in October 2011, that one of these companies had recently become
Afghan-owned and would now have a “D” license. These companies had received a total value of over
$23 million in AFI awards. 16

     •   AISA confirmed that company A was registered as a foreign-owned company at the time of
         award, but AISA’s files demonstrated that company A, as of October 2011, was a majority
         Afghan-owned company. According to AISA officials, the company was a majority foreign-
         owned when it first registered with AISA, but the foreign owner—an American—no longer holds
         the majority of shares. Company A recently re-registered as a domestic company. Company A
         has three sole-source contracts with USAID and one contract with USACE-TAN worth over
         $10.7 million collectively; it is one of the top 20 recipients of AFI awards identified in our
         analysis.

     •   AISA confirmed that company B, which has an ongoing contract with USACE-TAS, was mistakenly
         issued a domestic license when in fact, it was fully foreign-owned (a Turkish national owns
         50 percent and an American owns 50 percent). Company B’s contract with USACE-TAS is valued
         at about $2.1 million.

     •   Although AISA issued company C an AISA license as a domestic company, checks by AISA officials
         found that company C is owned by foreign investors, including the president and vice president.
         Company C currently has two AFI contracts, one with C-JTSCC and the other with USACE-TAN.
         These contracts are valued at over $8.8 million.

     •   AISA confirmed that company D is a foreign-owned company, although it has ongoing contracts
         with C-JTSCC. In project files sent to SIGAR, CSTC-A provided an AISA “D” license of a company
         that turned out to be company D’s subcontractor. Company D’s contract with C-JTSCC lists a
         California address. C-JTSCC told SIGAR it believed an exception for Company D had been made,
         but did not provide requested documentation or written confirmation. Company D currently has
         two contracts with C-JTSCC worth over $1.6 million.

Although contracting authorities collect AISA licenses at the time of award, we found that they did not
monitor license expiration dates of AFI companies during their contract period. Specifically as of
October 2011, 8 of the 19 companies with current, ongoing contracts had expired licenses. For example,
one company with an ongoing contract with USACE-TAN and ongoing contracts with USAID had a license
that expired in December 2010.

15
 Our assessment reflects the status of licenses as of October 2011 and not as of the date the contracts were
awarded.
16
 We are not using company names to protect their identities.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                 Page 8
Sufficiency of Resources

U.S. contracting authorities do not have a sufficient basis to determine whether Afghan companies have
the needed resources to execute awarded contracts and grants raising the risk Afghan companies might
default on their obligations due to resource constraints. Of the databases used by contracting
authorities, only the PDT database provides information on a prospective awardee’s sufficiency of
resources. PDT’s staff visit companies to validate their existence, including the presence of staff and
equipment. PDT, however, does not verify cash-flow or current financial resources. Of the contracting
authorities examined, only C-JTSCC consulted the PDT database to assess an Afghan firm’s sufficiency of
resources.

In March 2011, ABAP was initiated by the ISAF COIN Contracting Economic Enterprise, an umbrella
program that coordinates COIN contracting efforts in Afghanistan. The aim is to use ABAP as the
primary entity for vetting vendors for Afghan ownership, sufficiency of resources, and past performance.
Intended to be used for the vetting of all contracts awarded by C-JTSCC, ABAP currently has 14 business
advisors located at C-JTSCC Regional Contracting Centers across Afghanistan. C-JTSCC intends to
increase the number of advisors up to 75, and according to the September 2011 C-JTSCC acquisition
instructions, the business advisor will be used to validate all “non-vetted vendors” for company
information including ownership and its portfolio. The relative newness of the ABAP meant that we
could not assess its accuracy, although it appears to be the most rigorous effort by a U.S. contracting
authority to verify a company’s capacity to perform.

Past Performance

U.S. contracting authorities generally use databases that provide information on company performance
to vet Afghan company’s prior performance. As identified in table 3, databases include the Contractor
Performance Assessment Reporting System, Excluded Party List System, Federal Awardee Performance
and Integrity Information System, Joint Contingency Contracting System, PDT’s business directory, and
Past Performance Information Retrieval System. Vetting of prior performance generally does not
include physical visits to the site of a potential contractor’s business. For example, USACE-TAS officials
stated that they rely on records from past, completed work to assess a company’s prior performance, to
include the vetting of all potential bidders through the Joint Contingency Contracting System.

    •   The Contractor Performance Assessment Reporting System is a web-enabled application that
        collects and manages a library of automated performance reports that document performance
        information required by federal regulations. USACE, C-JTSCC, and State/INL reported that they
        use this system to evaluate the past performance of Afghan companies.
    •   The Excluded Party List System is a database that identifies companies that have been debarred,
        suspended, proposed for debarment, excluded or disqualified under the non-procurement
        common rule, or otherwise declared ineligible from receiving federal contracts. Contracting
        officials from PAS, C-JTSCC, and USACE reported that they use the Excluded Party List System for
        vetting purposes.
    •   The Federal Awardee Performance and Integrity Information System is a distinct application that
        is accessed through the Past Performance Information Retrieval System and is available to
        federal acquisition professionals for their use in award and responsibility determinations. The
        Federal Awardee Performance and Integrity Information System provides users access to
        integrity and performance information from its reporting module in the Contractor Performance
        Assessment Reporting System. PAS and USACE officials reported that they use this system to
        evaluate past performance of Afghan companies.



SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                          Page 9
     •   The Joint Contingency Contracting System is a DOD database that provides information on the
         past performance of DOD vendors that have reconstruction contracts in Iraq and Afghanistan.
         According to the U.S. Embassy, this database does not track all U.S. government vendors and is
         not applicable for use by State and USAID. This system allows oversight of in-theater contracts
         to monitor cost, schedule, and vendor activities and provides a centralized web-based reporting
         and tracking tool for data on contract awards and expenditures in Iraq and Afghanistan.
         According to U.S. Central Command regulations, contracting officers are required to use this
         system to vet all non-U.S. vendors. USACE and C-JTSCC officials reported that they used the
         Joint Contingency Contracting System as their primary method for verifying past performance of
         Afghan companies.
     •   PDT offers a business validation and registration service, which provides information on Afghan
         companies including contact information and operational capacity. PDT maintains a vendor
         database, which requires vendors to provide three past performance references including the
         name of the client, contact information for the client, type of work performed, period of
         contract, total value of the contract, and the description of work performed. C-JTSCC officials
         reported that they use PDT for vetting purposes.
     •   The Past Performance Information Retrieval System is a web-enabled, enterprise application
         that aims to provide timely and pertinent contractor past performance information to the DOD
         and the federal acquisition community for use in making source selection decisions. Contractor
         Performance Asessment Reporting System has connectivity with the Federal Past Performance
         Information Retrieval System. PAS, C-JTSCC, and USACE reported that they use the Past
         Performance Information Retrival System for vetting purposes.


SELECTED AFI CONSTRUCTION PROJECTS GENERALLY MET CONTRACT TERMS AND OUR
INSPECTIONS GENERALLY FOUND MINOR CONSTRUCTION FLAWS

Of the $654.4 million in reported U.S.-funded AFI awards to Afghan prime companies from January 2008
to May 2011, construction projects represented 90 percent of the awards, of which 20 Afghan
companies received nearly 80 percent of the $654.4 million. 17 Figure 1 illustrates the distribution of
funds for AFI awards by procurement category.




17
 Figures are based on agency responses to our May 2011 request for information on prime contracts with Afghan
companies.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                            Page 10
        Figure 1: Distribution of AFI Awards by Procurement Category
        ($ in millions)

                                                      $33.3
                                                       $16.7
                                                       $1.4




                     $603.0                                   Construction
                                                              Service
                                                              Commodity
                                                              Unknown



        Source: SIGAR analysis of USACE, C-JTSCC, INL/PAS, and USAID data



We found that for the contracts we reviewed, the Afghan companies generally met contract cost,
schedule, and outcome requirements. 18 Specifically, we reviewed 29 AFI construction contracts valued
at $133 million and selected 10 projects to inspect the progress and quality of work. Only one project
had major construction flaws, but the contracting authority had already issued letters of concern to the
contractor regarding its performance.

Selected Construction Projects Generally Met Outcomes and Our Inspections Generally Found
Minor Construction Flaws

We reviewed 29 AFI construction contracts valued at $133 million and found variances in costs and
construction schedules for 19 projects. Cost variances ranged from $7,400 to $15.2 million over the
original award amount. Schedule variances ranged from 38 days to 463 days over original targets. 19
With the exception of a police headquarters building in Farah, the other cost and schedule variances had
reasons generally not attributed to the contractor and supported by approved modifications. For
example, delays occurred because security issues had made it difficult to gain access to sites and
changes were requested by contracting authorities. In one instance, a land ownership issue put a $1.8
million project on hold.

We selected 10 contracts, which represented $46 million, to inspect the progress and quality of work
and conducted inspections in July and August 2011. Of the 10, 5 projects were for the construction of
facilities for the Afghan National Police and the Afghan National Army, such as headquarters facilities, an
Afghan National Army medical clinic; other projects included a staff barracks at a prison. All projects
were ongoing at the time of our inspection. We found only minor construction flaws at 9 of the 10 sites


18
  Our reporting on other U.S. construction awards to an Afghan firm illustrates that these positive results are not
necessarily typical and that a continued emphasis on vetting Afghan companies for their capacity to perform is an
important agency responsibility. For example, see SIGAR Audit-11-3, ANP District Headquarters Facilities in
Helmand and Kandahar Provinces Contain Significant Construction Deficiencies Due to Lack of Oversight and Poor
Contractor Performance (October 27, 2010).
19
  We did not have sufficient documentation to assess schedule variances for the C-JTSCC and INL projects we
reviewed.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                  Page 11
and the contactors were largely meeting the outcome requirements in their contracts. 20 Table 5 lists
the 10 construction projects, their location, description, and award amounts.

Table 5: Status of AFI Construction Projects in July-August 2011

                Contracting                                                          Original Award
Date of Visit                     Province       Project Description
                Authority                                                                   Amount

7/6/11          USAID             Kabul          Renovation of Men's Dormitory at       $6,890,771
                                                   Kabul University


7/16/11         INL               Kabul          Staff Barracks at Pol-i-Charkhi        $1,904,855
                                                    Prison Compound

7/16/11         INL               Kabul          Elevated Water Tank at Pol-i-          $1,492,135
                                                    Charkhi Prison Compound


7/20/11         USACE-TAS         Ghazni         Afghan National Police Station         $1,546,292


7/27/11         USACE-TAS         Farah          Afghan National Police Station         $2,099,600


8/9/11          USACE-TAN         Kabul          Kabul Military Training Center         $1,738,238
                                                   Drainage Rehabilitation

8/13/11         USACE-TAN         Balkh          Afghan National Army Regional         $26,943,886
                                                   Military Training Center


8/21/11         C-JTSCC           Helmand        Regional Military Training Center        $866,748
                                                   Power Plant and Distribution


8/21/11         C-JTSCC           Helmand        Regional Military Training Center        $950,496
                                                   Billeting

8/27/11         USACE-TAS         Herat          Afghan National Army Troop             $1,668,806
                                                   Medical Clinic
Source: SIGAR analysis of data provided by USACE, C-JTSCC, USAID, INL, and PAS.

At one project—a police station in Farah province—we found some major construction flaws. We
observed that the main building had columns in place and a complete slab on grade, the perimeter wall
was structurally complete, and concrete block work had commenced. However, the quality of concrete
block work was poor, the slab on grade was uneven in many locations and the concrete columns
evidenced honeycombing and cosmetic concrete patching. 21 During the course of this audit, we
identified that this Afghan firm had an expired license and was identified by AISA to be majority foreign-
owned.


20
  Examples of minor construction flaws include honeycombing on some columns, cold joints, consumer quality
fixtures, and improperly buried electrical cables.
21
 A rough, pitted surface resulting from incomplete filling of the concrete against formwork, often caused by using
concrete that is too stiff or by not vibrating it sufficiently after it has been poured.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                Page 12
In July 2011, the project was about a year behind schedule. USACE-TAS officials in Farah stated that
they had issued cure notices 22 and letters of concern to the Afghan company. For example, USACE-TAS
issued a letter to the Afghan contractor in July 2011 citing concerns with the poor quality of concrete on
the site. Until June 2011, when USACE-TAS established a Resident Engineer Office in Farah, USACE-TAS
did not have a significant presence in the region and had used a Local National Quality Assurance
representative to visit the site on a regular basis. In October 2011, USACE-TAS officials stated that
construction quality of this project had improved and that actions had been taken to correct the poor
concrete quality issues.

DATA ON EMPLOYMENT GAINS IS LIMITED

U.S. agencies collected employment data from their AFI awards for different purposes and in various
ways, but not with the intention of measuring increases in Afghan employment. However, AFI guidance
neither requires U.S. agencies to systematically collect employment data from AFI awards nor provides a
standard definition of employment to track AFI’s progress in increasing Afghan employment and
improving Afghanistan’s economy. Aggregate data on Afghan employment resulting from coalition
partners’ contracting activities is only available in an ISAF “scorecard,” which includes broad indicators
of the impact of procurements awarded by coalition countries.

In response to the September 2010 COIN contracting guidance, ISAF developed a “scorecard” to assess
ISAF’s progress in furthering the COIN contracting guidance. The scorecard reports data in several
relevant areas, one of which is Afghan employment figures. Nevertheless, the scorecard only reports
DOD agency data; ISAF officials told us that they are in discussions with State and USAID to obtain their
data. On a quarterly basis, each DOD contracting agency reports figures to ISAF. According to ISAF
officials, these figures are validated by comparing the submissions to the Federal Procurement Data
System and Army Contracting Business Intelligence System data.

Due to the various methods used to collect employment data and the absence of a standard definition
of employment, the data in the scorecard may be of questionable validity and value. Although the
scorecard’s contract data is validated in total, ISAF officials stated that the employment data provided is
agency-reported and not independently verified—either by physical inspection at the worksites or by
reviewing supporting documents. ISAF officials stated they lack the staff to verify figures. For example,
each of the contracting authorities we reviewed collected some type of Afghan employment data, but
the absence of a standard definition of employment led each agency to use varying employment records
and data sources, varying definitions of what constituted “employment,” and varying levels of data
verification.

We attempted to verify claimed employment gains at a project often cited by the Combined Security
Transition Command-Afghanistan and others to be an AFI success story. In October 2011, we performed
a physical verification of employees and confirmed that the numbers reported were accurate at the
time. See the case study summary.




22
  A cure notice is sent prior to terminating a contract for any reason other than late delivery, such as the
contractor’s failure to perform some other provision of the contract or failure to make progress so as to endanger
the performance of the contract.

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                 Page 13
              CASE STUDY: AFGHAN-OWNED COMPANY EMPLOYS APPROXIMATELY 160 AFGHANS

      To verify one set of reported employment figures, we conducted a case study of a company
      frequently publicized to be an AFI success story. Over the past 3 years, this company
      received $75.2 million from the Afghanistan Security Forces Fund to produce boots for the
      Afghanistan National Security Forces. This company has three divisions which make boots,
      PVC pipes, and mattresses. The company started supplying boots through a Blanket
      Purchase Agreement awarded by C-JTSCC in 2007, and later through an Indefinite Delivery
      Indefinite Quantity contract awarded in 2009. The Defense Contract Management Agency
      provides contract oversight for the 2009 contract. According to these officials, the
      company originally produced poor quality boots and could have been terminated. Instead,
      the agency officials stated they made significant investments in training and improved
      quality control to allow the company to continue production. For example, the Defense
      Contract Management Agency recommended building a prototype boot using U.S.
      specifications and then have the company enter into a low-rate, initial production to verify
      the boots could be produced at an acceptable quality level.

      The company reports on a monthly basis to DOD the number of employees it directly hired
      as a result of its contract with the U.S. government. In October 2011, the company
      reported that it employed 162 individuals. To validate these figures, in October 2011, we
      physically verified the number of employees at the company by observing the payroll
      distribution. We confirmed that the numbers reported were accurate. The 162 positions—
      part of the company’s 700 employees—were directly attributed to performing work for the
      2009 Indefinite Delivery Indefinite Quantity contract.




CONCLUSION

U.S. contracting authorities did not use a single location or repository to link sources of AFI
opportunities and did not consistently consult available databases to vet an Afghan firm’s ownership,
licensing, and prior performance. As a result, interested and qualified Afghan companies may not be
aware of solicitation notices, and contracting authorities did not always ensure that Afghan companies
met AFI requirements for Afghan ownership and were licensed to do business in Afghanistan.
Therefore, access to contract opportunities among Afghan companies may be limited, and some
companies may not have been eligible for AFI. Although our inspections of 10 construction projects
found that the Afghan contractors had generally met the contract terms, as more contracts are awarded
to Afghan companies, vetting their qualifications and prior performance will become increasingly
important. The lack of a standard definition of and methodology for assessing employment gains as a
result of AFI led to varying interpretations of what is needed and inconsistent data. This limits the
U.S. ability to assess progress and determine whether the overall objective of creating job opportunities
in the economy. Without capturing the data associated with the intended goal of increasing licit Afghan
employment, the overall effect of AFI on the Afghan economy cannot be assessed.




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                       Page 14
RECOMMENDATIONS

To help broaden the base of participating Afghan companies, and ensure that only qualified companies
receive AFI awards, SIGAR recommends that the Commander USFOR-A and the U.S. Ambassador to
Afghanistan, in coordination with C-JTSCC, USACE, and the USAID Mission Director:

     1. Promote the use of a designated website, such as AfghanFirst.org, as an information portal for
        linking sources of U.S. procurement information in one location.
     2. Develop guidelines to encourage U.S. contracting authorities to adopt a more systematic
        approach to considering all available and relevant vetting sources to assess Afghan ownership,
        sufficiency of resources, and past performance.
     3. Immediately require U.S. contracting authorities to verify whether current AFI award recipients
        are Afghan-owned and have current licenses to operate in Afghanistan.

To help assess whether AFI awards are generating Afghan employment opportunities, SIGAR
recommends that the Commander USFOR-A and the U.S. Ambassador to Afghanistan, in coordination
with C-JTSCC, USACE, and the USAID Mission Director:

     4. Develop guidelines that define employment generation; delineate the employment data
        needed, including collection and verification standards; and develop an assessment process to
        measure Afghan employment levels resulting from AFI procurement activities.


COMMENTS

The U.S. Embassy Kabul (including USAID and the Embassy’s Public Affairs and INL sections), C-JTSCC,
CSTC-A, and USACE provided written comments on a draft of this report. These comments are
reproduced in appendices II through V, respectively. In their responses, the U.S. Embassy Kabul,
C-JTSCC, and CSTC-A concurred with the four recommendations and noted actions taken or planned to
be taken. USACE concurred with three of the recommendations, but did not concur with the fourth
recommendation to take measures to assess the generation of Afghan employment opportunities from
AFI awards. USACE stated that employment data is difficult to collect and validate, and noted that the
nature of construction contracts results in employment that is not permanent. However, construction
skills are transferable and Afghan workers will likely have opportunities to work on other projects. The
U.S. Embassy Kabul also provided technical comments, which we incorporated, as appropriate.




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                       Page 15
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of the Afghan First Initiative (AFI). This review did not include all AFI
awards; rather, it was limited to awards funded by the Afghanistan Security Forces Fund, Economic
Support Fund, or other Afghanistan reconstruction funds. This report assesses (1) how agencies
identified and documented that Afghan firms were eligible for AFI, (2) progress made on selected
contracts with Afghan firms, and (3) how agencies were measuring progress towards AFI’s overall goals
of increasing employment opportunities.

Overall, to accomplish these objectives, we reviewed AFI legislative guidance and related
documentation, including Section 886 of the Fiscal Year 2008 National Defense Authorization Act, 23
Section 1102 of the 2009 Supplemental Appropriations Act, 24 counterinsurgency contracting guidance,
and other AFI related guidance from the Commander of U.S. Forces-Afghanistan and the
U.S. Ambassador to Afghanistan.

To determine what awards—funded by the Afghanistan Security Forces Fund and the Economic Support
Fund—were AFI-related, we met with contracting officials or collected data from the US Central
Command Joint Theater Support Contracting Command-Afghanistan (C-JTSCC); the U.S. Army Corps of
Engineers’ Afghanistan Engineer District-North (USACE-TAN) and Afghanistan Engineer District-South
(USACE-TAS); the Department of Defense’s (DOD) Task Force for Business and Stability Operations
(TFBSO); the U.S. Agency for International Development (USAID); the Department of State (State);
interagency working groups, and Afghan companies. 25 Our scope included AFI reconstruction-funded
awards to prime contracts and grants awarded from January 2008 through May 2011. We excluded
(1) awards to Afghan companies based on full and open competition, (2) prime contractors' and
implementing partners' sub-contracts awarded to Afghan companies, and ( 3) Commander's Emergency
Response Program-funded projects. 26 The response from agencies to our May 2011 request provided us
with information on 356 projects totaling $654.4 million. To assess the reliability of
computer-processed data, we (1) interviewed officials to discuss the reliability of the data; (2) conducted
electronic testing and checked for missing data, erroneous or incomplete entries, and duplicates; and
(3) compared system generated data with the documents in the project files. On the basis of our
reliability assessments, we determined that the data was sufficiently reliable to identify AFI awards
within our limited scope, with the exception of C-JTSCC data. We have ongoing work to assess the
reliability of C-JTSCC’s data and its data query retrieval process. Until the assessment is complete, the
reliability of the construction data obtained from C-JTSCC and used in this report is undeterminable.

To determine how agencies solicit Afghan companies for AFI awards, we conducted interviews with
contracting authorities, attended Afghan First Working Group meetings held by State and the
International Security Assistance Force, and held a panel discussion with 10 Afghan companies to gain
their general views of solicitation. To determine how contracting agencies vetted companies for

23
 P.L. 110-181, Section 886.
24
 P.L. 111-32, Section 1102.
25
 The Air Force Center for the Environment and the Environment notified us that it does not use AFI when
awarding contracts.
26
  Although by definition, the Commander’s Emergency Response Program (CERP) is an Afghan First program, its
authorizing legislation (P.L. 108-106, Title 1, Section 1110) gives field commanders broad authority to spend CERP
funds notwithstanding other provisions of law. As a result, projects funded by CERP funds are not bound by the
Federal Acquisition Regulation or other procurement laws. Therefore, we excluded CERP projects from the scope
of our audit. Additionally, we reported on CERP project implementation efforts. See SIGAR, Commander’s
Emergency Response Program in Laghman Province Provided Some Benefits, but Oversight Weaknesses and
Sustainment Concerns Led to Questionable Outcomes and Potential Waste, SIGAR Audit-11-7 (January 27, 2011).

SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                                 Page 16
(1) sufficiency of resources (cash flow, equipment, and staff) and (2) prior performance, we collected
information on available sources for vetting and conducted interviews with contracting agencies to
determine the methods used by each agency. To determine whether agencies vet companies for Afghan
ownership, we provided information on 20 contractors, which were within the 29 larger construction
contracts, to AISA to independently verify ownership status. We were able to confirm the status of
19 companies with AISA officials. We also independently reviewed the information available for these
companies in AISA’s online directory, and validated these licenses in the contract files with agency
officials to confirm they were Afghan-owned.

To assess the performance of companies awarded AFI contracts, including compliance with cost,
schedule, and outcome terms of the contracts, we analyzed the 29 larger construction projects. To
determine the cost of projects, we analyzed obligation and disbursement data from contract documents
obtained from the relevant contracting authorities.

To determine project outcomes, we analyzed quality assurance reports and additional documents in the
project files that listed the project requirement (such as the contracts and statements of work) and
described the conditions of the projects. Of the 29 construction projects, we selected 13 contracts for
site visits based on risk factors such as schedule slippage and reported quality or design issues. We were
unable to visit three projects due to security constraints. In the end, we inspected 10 projects which
represented $46 million. We conducted our inspections during July and August 2011. At the sites, we
interviewed key project management officials, contractors’ representatives, and agency officials
providing contract oversight. To determine project schedules, we analyzed project completion dates
based on the contract documents that we obtained from the contracting agencies.

To assess the progress made towards achieving AFI’s broad outcome objectives, including increased
employment, we conducted interviews with contracting authorities to obtain information on the
tracking of employment in AFI contracts.

We assessed internal controls over contracting authorities’ procedures for (1) selecting and awarding
projects under AFI, (2) tracking projects after awards; and (3) monitoring and evaluating the contractors
through interviews, site visits, and analyses performed for the 29 construction projects. The results of
our assessment are included in the body of this report.

We conducted this audit from March 2011 to December 2011 in Kabul, Herat, Farah, Balkh, Ghazni,
Helmand, and Kandahar provinces in Afghanistan, in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. This audit was conducted by SIGAR under the authority of
Public Law No. 110-181, as amended; and the Inspector General Act of 1978; and the Inspector General
Act of 2008.




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                        Page 17
APPENDIX II: COMMENTS FROM THE U.S. EMBASSY KABUL




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 18
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 19
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 20
                                                                             See SIGAR
                                                                             comment 1.




                                                                             See SIGAR
                                                                             comment 2.




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 21
                                                                             See SIGAR
                                                                             comment 3.

                                                                             See SIGAR
                                                                             comment 4.

                                                                             See SIGAR
                                                                             comment 5.


                                                                             See SIGAR
                                                                             comment 6.




                                                                             See SIGAR
                                                                             comment 7.




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 22
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 23
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 24
The following are SIGAR’s comments to the U.S. Embassy Kabul’s response dated January 25, 2012:

     1. We disagree. We have noted in the introduction section of this report and in the scope and
        methodology that we only included prime contracts awarded to Afghan companies in this
        audit. Therefore, the figures in table 1 only represent U.S. agency prime awards funded with
        the Afghanistan Security Forces Fund, the Economic Support Fund, or other reconstruction
        funds. Our depiction of USAID’s AFI awards is based on USAID’s response to our data call in
        May 2011. This response included four contracts awarded by USAID to Afghan companies. We
        subsequently confirmed this data with USAID staff in June 2011.
     2. We disagree. We noted that USAID uses www.fbo.gov, but cannot confirm that USAID uses
        www.AfghanFirst.org. FedBizOps (www.fbo.gov) is a distinct website, separate from
        www.AfghanFirst.org. We did not define the websites to be interchangeable as suggested.
     3. We updated table 2 to indicate that USAID also participates in industry fairs, conferences, or
        other meetings as a method of solicitation.
     4. We made the correction.
     5. We added acknowledgement of PAS’s policy change.
     6. We updated table 4 to reflect that USAID uses CPARS and EPLS and also added “N/A” to the
        JCCS column for INL, PAS and USAID. We did not include “N/A” under ABAP because ABAP
        officials provided information confirming that State may make requests through them for
        information. We excluded contracts awarded by implementing partners and therefore cannot
        comment on their vetting practices. Additionally, we did not examine vetting methods used by
        U.S. contracting authorities for terrorism links, as stated.
     7. We made the correction.




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                       Page 25
APPENDIX III: COMMENTS FROM CENTCOM JOINT THEATER SUPPORT CONTRACTING
COMMAND




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 26
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 27
APPENDIX IV: COMMENTS FROM NATO TRAINING MISSION-AFGHANISTAN / COMBINED
SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 28
APPENDIX V: COMMENTS FROM U.S. ARMY CORPS OF ENGINEERS




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 29
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 30
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 31
SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative   Page 32
           (This performance audit was conducted under the audit project code SIGAR-043A).




SIGAR Audit-12-6 Economic and Social Development / Afghan First Initiative                   Page 33
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              publically released reports, testimonies, and
                              correspondence on its Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-545-5974
                                 •   Email:sigar.pentagon.ccr.mbx.public-
                                     affairs@mail.mil
                                 •   Mail: SIGAR Public Affairs
                                     2530 Crystal Drive,
                                     Arlington, VA 22202
